U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Martin G. Lewis v. DeWayne Hendrix, No. 20-7863
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 22, 2021.
The government’s response is now due, after one extension, on June 28, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7863
LEWIS, MARTIN G.
DEWAYNE HENDRIX, WARDEN

STEPHEN REESE SADY
FEDERAL PUBLIC DEFENDER
101 SW MAIN STREET
SUITE 1700
PORTLAND, OR 97204

